Andrew Tutt
+1 202.942.5242 Direct
Andrew.Tutt@arnoldporter.com

October 30, 2020

Via CM/ECF
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Alex M. Azar, II, Secretary of Health and Human Services, et al. v. Mayor
and City Council of Baltimore, S.Ct. No. 20-454

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on
October 7, 2020, and placed on the docket on October 8, 2020. The Mayor and City
Council of Baltimore’s response is due on November 9, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension
of time to and including December 9, 2020, within which to file the Mayor and City
Council of Baltimore’s response.
This extension is requested to complete preparation of the Mayor and City
Council of Baltimore’s response in light of complications arising out of the ongoing
COVID-19 pandemic and counsel’s obligations in other pending matters, including an
opening brief and appendix due November 17 in Radwan v. University of Connecticut
Board of Trustees, No. 20-2194 (2d Cir.), and oral arguments scheduled for the first week
of December in Anibowei v. Morgan, No. 20-10059 (5th Cir.), Talevski v. Health and
Hospital Corporation of Marion County, No. 20-1664 (7th Cir.), and Morrissey v. Wolf,
No. 20-5024 (D.C. Cir.).

Respectfully Submitted,
Dana Petersen Moore
Acting City Solicitor
Jane H. Lewis
Assistant City Solicitor
CITY OF BALTIMORE
DEPARTMENT OF LAW
City Hall, Room 109
100 N. Holliday Street
Baltimore, MD 21202
443-388-2190
law.danapmoore@baltimorecity.gov

By /s/ Andrew Tutt
Andrew T. Tutt
Drew A. Harker
ARNOLD & PORTER KAYE
SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
Telephone: (202) 942-5000
andrew.tutt@arnoldporter.com
Priscilla J. Smith
REPRODUCTIVE RIGHTS &
JUSTICE PROJECT
YALE LAW SCHOOL
319 Sterling Place
Brooklyn, NY 11238
priscilla.smith@ylsclinics.org

Stephanie Toti
LAWYERING PROJECT
25 Broadway, Fl. 9
New York, NY 10004
646-490-1083
stoti@lawyeringproject.org

Faren M. Tang
REPRODUCTIVE RIGHTS &
JUSTICE PROJECT
YALE LAW SCHOOL
127 Wall Street
New Haven, CT
faren.tang@ylsclinics.org

Counsel for Respondent Mayor and City Council of Baltimore

cc: See Attached Service List

2

20-0454
ALEX M. AZAR, SEC. OF HEALTH & HUMAN SERVICES, ET AL.
MAYOR AND CITY COUNCIL OF BALTIMORE
JEFFREY B. WALL
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20530-0001
202-514-2217
SUPREMECTBRIEFS@USDOJ.GOV

3

